                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-01672-260




    Combined Assessment Program 

             Review of 

        VA Butler Healthcare 

        Butler, Pennsylvania 





July 25, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                                           CAP Review of VA Butler Healthcare, Butler, PA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 DCHV           Domiciliary Care for Homeless Veterans
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Butler Healthcare
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH RRTP        Mental Health Residential Rehabilitation Treatment
                                Program
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PRC            Peer Review Committee
                 QM             quality management
                 RME            reusable medical equipment
                 SA             substance abuse
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                                      CAP Review of VA Butler Healthcare, Butler, PA



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 7

  Coordination of Care – HPC ................................................................................... 8

  Nurse Staffing ......................................................................................................... 10

  MH RRTP ............................................................................................................... 11


Appendixes
  A. Facility Profile ....................................................................................................      13

  B. VHA Patient Satisfaction Survey .......................................................................                    14

  C. VISN Director Comments ..................................................................................                  15

  D. Facility Director Comments ...............................................................................                 16

  E. OIG Contact and Staff Acknowledgments .........................................................                            19

  F. Report Distribution .............................................................................................          20

  G. Endnotes ...........................................................................................................       21





VA OIG Office of Healthcare Inspections
                                                CAP Review of VA Butler Healthcare, Butler, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 13, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following three activities:

   Environment of Care
   Medication Management – Controlled Substances Inspections
   Nurse Staffing

The facility’s reported accomplishment was the domiciliary recovery model, which
emphasizes enhancing life skills training.

Recommendations: We made recommendations in the following three activities:
Quality Management: Ensure actions from peer reviews are consistently completed and
reported to the Peer Review Committee. Consistently scan results of non-VA
purchased diagnostic tests into electronic health records.

Coordination of Care – Hospice and Palliative Care: Establish a process to track
hospice and palliative care consults that are not acted upon within 4 days of the
request. Complete interdisciplinary care plans for all hospice and palliative care
inpatients. Consistently reassess hospice and palliative care inpatients’ pain, and timely
document results in electronic health records.

Mental Health Residential Rehabilitation Treatment Program: Ensure monthly
Domiciliary Care for Homeless Veterans Program and substance abuse domiciliary
self-inspection documentation includes all required elements.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 15–18, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                     JOHN D. DAIGH, JR., M.D.
                                                    Assistant Inspector General for 

                                                       Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                      i
                                                 CAP Review of VA Butler Healthcare, Butler, PA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, interviewed managers and employees, and reviewed clinical
and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Nurse Staffing

   	   MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through May 16, 2013,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we made in our
previous CAP report (Combined Assessment Program Review of VA Butler Healthcare,
Butler, Pennsylvania, Report No. 11-02083-06, October 19, 2011).

During this review, we presented crime awareness briefings for 125 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.



VA OIG Office of Healthcare Inspections                                                      1
                                                CAP Review of VA Butler Healthcare, Butler, PA


Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
133 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Domiciliary Recovery Model – Life Skills Training
The facility’s domiciliary recovery model emphasizes enhancing life skills training. The
residents take ownership responsibility of the new, state-of-the-art domiciliary by
learning skills such as cleaning and cooking. The residents’ sense of pride in their
physical environment has motivated them to keep all five domiciliary buildings in pristine
condition. This sense of accountability for the condition of their surroundings has
improved the residents’ chances of successfully integrating into their communities after
they leave the domiciliary.




VA OIG Office of Healthcare Inspections                                                     2
                                                              CAP Review of VA Butler Healthcare, Butler, PA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
 NA    There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer        Six months of PRC meeting minutes reviewed:
       review process were reported to the PRC.           Of the 13 actions expected to be completed,
                                                            3 were not reported to the PRC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                   3
                                                              CAP Review of VA Butler Healthcare, Butler, PA


 NC            Areas Reviewed (continued)                                    Findings
  X    Appropriate quality control processes were in     Twenty-eight EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Nine test results were not scanned into the
                                                           EHRs.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                   4
                                                            CAP Review of VA Butler Healthcare, Butler, PA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the primary care, ophthalmology, podiatry, and wound care clinics; the physical
rehabilitation and restorative medicine department; both CLC units; and SPS. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
three SPS employee training and competency files. The table below shows the areas reviewed
for this topic. Any items that did not apply to this facility are marked NA. The facility generally
met requirements. We made no recommendations.

 NC           Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning    
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.



VA OIG Office of Healthcare Inspections                                                                 5
                                                          CAP Review of VA Butler Healthcare, Butler, PA


 NC          Areas Reviewed for Hemodialysis                            Findings
                          (continued)
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
 NA    The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                               6
                                                        CAP Review of VA Butler Healthcare, Butler, PA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and eight CS inspectors and inspection documentation from
two CS areas, the outpatient pharmacy, and the emergency drug cache. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                 Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             7
                                                              CAP Review of VA Butler Healthcare, Butler, PA




Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 24 employee training records (10 HPC staff records and 14 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
X      The PCCT responded to consults within the          Four consults were not acted upon within
       required timeframe and tracked consults that        4 days of the request and had not been
       had not been acted upon.                            tracked.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
X      An interdisciplinary team care plan was            Four of eight hospice care plans were not
       completed for HPC inpatients within the             completed.
       facility’s specified timeframe.
X      HPC inpatients were assessed for pain with         Six of the 10 applicable EHRs did not contain
       the frequency required by local policy.             timely documentation of pain reassessments.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                    8
                                                   CAP Review of VA Butler Healthcare, Butler, PA


 NC            Areas Reviewed (continued)                        Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that a process be established to track HPC consults that are not acted
upon within 4 days of the request.

4. We recommended that processes be strengthened to ensure that interdisciplinary care
plans are completed for all HPC inpatients.

5. We recommended that processes be strengthened to ensure that HPC inpatients’ pain is
consistently reassessed and that results are documented timely in EHRs.




VA OIG Office of Healthcare Inspections                                                        9
                                                         CAP Review of VA Butler Healthcare, Butler, PA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on one selected
long-term care unit.

We reviewed relevant documents and 12 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for the Halls of Honor CLC
unit for 52 randomly selected days (holidays, weekdays, and weekend days) between
October 1, 2012, and March 31, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                    Areas Reviewed                                  Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             10
                                                             CAP Review of VA Butler Healthcare, Butler, PA


MH RRTP
The purpose of this review was to determine whether the facility’s SA domiciliary and DCHV
Program complied with selected EOC requirements.5

We reviewed relevant documents, inspected the SA domiciliary and DCHV Program, and
conversed with key employees. The table below shows the areas reviewed for this topic. The
area marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                    Areas Reviewed                                      Findings
       The residential environment was clean and in
       good repair.
       Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
 X     Monthly MH RRTP self-inspections were            Six months of self-inspection documentation
       conducted, documented, and included all          reviewed:
       required elements; work orders were               Documentation did not include all required
       submitted for items needing repair; and any         elements.
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.
       Medications in resident rooms were secured.



VA OIG Office of Healthcare Inspections                                                                 11
                                                   CAP Review of VA Butler Healthcare, Butler, PA


 NC            Areas Reviewed (continued)                        Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

6. We recommended that processes be strengthened to ensure that monthly DCHV Program
and SA domiciliary self-inspection documentation includes all required elements.




VA OIG Office of Healthcare Inspections                                                       12
                                                                CAP Review of VA Butler Healthcare, Butler, PA
                                                                                                 Appendix A


       Facility Profile (Butler/529) FY 2013 through March 2013a
Type of Organization                                                         Secondary
Complexity Level                                                             3
Affiliated/Non-Affiliated                                                    Non-Affiliated
Total Medical Care Budget in Millions                                        $86.5
Number (through April 2013) of:
    Unique Patients                                                         14,814
    Outpatient Visits                                                       91,075
    Unique Employeesb                                                       403
Type and Number of Operating Beds:
    Hospital                                                                0
    CLC                                                                     97
    Mental Health                                                           56
Average Daily Census:
    Hospital                                                                NA
    CLC                                                                     58
    Mental Health                                                           51
Number of Community Based Outpatient Clinics                                 5
Location(s)/Station Number(s)                                                Mercer County/529GA
                                                                             Lawrence County/529GB
                                                                             Armstrong County/529GC
                                                                             Clarion County/529GD
                                                                             Cranberry Township/529GF
VISN Number                                                                  4




a
    All data is for FY 2013 through March 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                    13
                                                           CAP Review of VA Butler Healthcare, Butler, PA
                                                                                            Appendix B


                         VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                  Inpatient Scores                              Outpatient Scores
                      FY 2012                                       FY 2012
              Inpatient       Inpatient       Outpatient      Outpatient     Outpatient      Outpatient
              Score           Score           Score           Score          Score           Score
              Quarters 1–2    Quarters 3–4    Quarter 1       Quarter 2      Quarter 3       Quarter 4
Facility        *              *               56.7           65.8           60.2            65.1
VISN            66.9           65.4            59.5           60.5           59.3            60.8
VHA             63.9           65.0            55.0           54.7           54.3            55.0
 * The facility does not have inpatient hospital beds.




VA OIG Office of Healthcare Inspections                                                                   14
                                                  CAP Review of VA Butler Healthcare, Butler, PA
                                                                                   Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           July 15, 2013 


       From:           Director, VA Healthcare (10N4) 


       Subject:        CAP Review of VA Butler Healthcare, Butler, PA

       To:             Director, Baltimore Office of Healthcare Inspections (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the information provided by VA Butler Healthcare and I
       am submitting it to your office as requested. I concur with all responses
       and target dates.

       If you have any questions or require additional information, please contact
       Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.




        Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                      15
                                                  CAP Review of VA Butler Healthcare, Butler, PA
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           July 3, 2013

       From:           Director, VA Butler Healthcare (529/00)

       Subject:        CAP Review of VA Butler Healthcare, Butler, PA

       To:             Director, VA Healthcare (10N4)

       The findings from the VA Butler Healthcare Office of the Inspector
       General/Combined Assessment Program Review, conducted during the
       week of May 13, 2013, have been reviewed.

       Attached is the facility’s response addressing all recommendations that
       have been completed.




       JOHN A. GENNARO




VA OIG Office of Healthcare Inspections                                                      16
                                               CAP Review of VA Butler Healthcare, Butler, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC.

Concur

Target date for completion: Implemented: May 17, 2013
                            Target completion: September 30, 2013

Facility response: Actions for level two and level three peer reviews are documented on
a tracking sheet that is attached to the monthly minutes. This tracking sheet includes
the name of the assigned service chief and date of closure. The peer review form now
includes a signature area so that the service chief and staff member verify by signature
when the final peer review findings are reviewed.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: Implemented: June 21, 2013
                            Target completion: September 30, 2013

Facility response: The entire hospital episode for non-VA admissions is now scanned
into the Electronic Health Record (EHR).

Recommendation 3. We recommended that a process be established to track HPC
consults that are not acted upon within 4 days of the request.

Concur

Target date for completion: 	Implemented: June 21, 2013
                             Target completion: September 30, 2013

Facility response: The Hospice/Palliative Care Committee members have been
educated on the timeframe for responding to Hospice/Palliative Care Consults as
defined in MCM PC 79. The Hospice/Palliative Care Coordinator utilizes an open
consult report twice weekly in order to ensure that all Hospice/Palliative Care Consults
are acted upon according to the defined timeframes. The results of this monitor are
reported quarterly to Patient Care Services Committee for further actions if needed.




VA OIG Office of Healthcare Inspections                                                   17
                                                 CAP Review of VA Butler Healthcare, Butler, PA


Recommendation 4. We recommended that processes be strengthened to ensure that
interdisciplinary care plans are completed for all HPC inpatients.

Concur

Target date for completion: Implemented: June 21, 2013
                            Target completion: September 30, 2013

Facility response: The Community Living Center nursing staff has been educated on the
completion of interdisciplinary care plans for Hospice/Palliative Care Residents. In
addition to weekly Hospice Rounds, the Hospice/Palliative Care Coordinator meets with
each Hospice Veteran in order to assure that the plan of care includes all interventions
specific to the Veteran. The Hospice/Palliative Care Coordinator is monitoring the
completion of all Interdisciplinary care plans on all Hospice Veterans residing in the
Community Living Center. The results of this monitor are reported quarterly to Patient
Care Services Committee for further action as needed.

Recommendation 5. We recommended that processes be strengthened to ensure that
HPC inpatients’ pain is consistently reassessed and that results are documented timely
in EHRs.

Concur

Target date for completion: Implemented: June 21, 2013
                            Target completion: September 30 2013

Facility response: All Community Living Center staff have been re-educated on the
importance of pain assessment, re-assessment and timely documentation of
effectiveness of interventions. The Hospice/Palliative Care Coordinator is monitoring
the completion of pain assessments, re-assessments and medication effectiveness
daily to assure that the results are documented and that the provider is notified when
pain interventions are not effective. The results of this monitor are reported quarterly to
Patient Care Services Committee for further actions if needed.

Recommendation 6. We recommended that processes be strengthened to ensure that
monthly DCHV Program and SA domiciliary self-inspection documentation includes all
required elements.

Concur

Target date for completion: Implemented: May 17, 2013
                            Target completion: September 30, 2013

Facility response: The self-assessment tool used for monthly inspections in the
Domiciliary has been revised to include all required elements.




VA OIG Office of Healthcare Inspections                                                     18
                                                  CAP Review of VA Butler Healthcare, Butler, PA
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Contributors 	          Margie Chapin, RT (R, MR, CT), JD, Team Leader
                        Donald Braman, RN
                        Jennifer Christensen, DPM
                        Thomas Dominski
                        Terri Julian, PhD
                        Melanie Oppat, MEd, LDN
                        Sonia Whig, MS, LDN
Other 	                 Elizabeth Bullock
Contributors 	          Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      19
                                               CAP Review of VA Butler Healthcare, Butler, PA
                                                                                Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Healthcare (10N4)
Director, VA Butler Healthcare (529/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr.; Patrick J. Toomey
U.S. House of Representatives: Mike Kelly, Keith Rothfus, Glenn W. Thompson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                   20
                                                              CAP Review of VA Butler Healthcare, Butler, PA
                                                                                               Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Materiel Management, the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                         21
                                                            CAP Review of VA Butler Healthcare, Butler, PA



5
    References used for this topic were: 

 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP), 

    December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
    Protection Association.




VA OIG Office of Healthcare Inspections                                                                      22
